February 2009
Report No. AUD-09-002


Examination Coverage of Underwriting
Practices for Consumer Loans Not
Secured by Real Estate
                                                                 Report No. AUD-09-002                                  February 2009

                                                                 Examination Coverage of Underwriting
               Federal Deposit Insurance Corporation             Practices for Consumer Loans Not
Why We Did The Audit                                             Secured by Real Estate
As of March 31, 2008, FDIC-supervised institutions held          Audit Results
approximately $94.7 billion in consumer loans not secured
by real estate. Such loans were used by consumers to             DSC has established sound risk management examination
finance a wide array of items, such as: automobiles,             guidance for the reviews of consumer loans not secured by real
appliances, furniture, home repairs, education costs,            estate in FDIC-supervised institutions. Specifically, DSC has
medical expenses, and vacations. Accordingly, it is              issued examiner guidance in the form of examination manuals,
important for FDIC examiners to adequately assess the            Regional Directors Memoranda, Examination Documentation
risks associated with such consumer loans when they              modules, Financial Institution Letters, and FDIC policy
represent a material percentage of an institution’s assets.      statements.

The audit objective was to assess FDIC risk management           Based on our review of 14 examinations, we concluded that the
examination coverage of institution underwriting practices       examiners followed established guidance and conducted
for consumer loans not secured by real estate.                   procedures as part of risk management examinations to assess
                                                                 consumer loan underwriting risks. Specifically, we found
                                                                 evidence that examiners had reviewed indirect lending
Background                                                       agreements, underwriting practices, credit scoring systems, the
                                                                 adequacy of allowances for loan, and lease losses, and asset
Loan underwriting is the process a lender uses to                classifications, and risk and account management systems.
determine whether the risk of lending to a particular            Additionally, examiners conducted transaction testing on a
borrower under a particular set of circumstances is              sample of consumer loans when necessary to assess compliance
acceptable. To help assess the quality of a particular loan,     with underwriting standards.
institutions commonly develop underwriting guidelines
and use automated or manual credit scoring systems that          Although our overall conclusion was positive with respect to
mathematically evaluate creditworthiness on the basis of         examination coverage of institution underwriting practices for
key attributes of the applicant and other aspects of the         consumer loans not secured by real estate, examiners did not
transaction. The information resulting from the                  always properly complete the required Underwriting Survey.
application of these guidelines and systems is used by the       FDIC policy requires that a knowledgeable examiner complete
institution to assess the risks involved in making a             the Underwriting Survey at the conclusion of each examination;
particular loan. The FDIC’s Division of Supervision and          however, for 8 (57 percent) of the 14 sampled examinations, the
Consumer Protection (DSC) has issued underwriting                examiners either did not complete the survey (2 cases) or
standards to institutions and focuses attention on loan          provided responses that were inconsistent with information in the
underwriting, including credit scoring, as part of statutorily   Reports of Examination on consumer loan underwriting
required risk management examinations of FDIC-                   (6 cases). Controls over the Underwriting Survey process were
supervised institutions.                                         not sufficient to prevent and detect these errors. As a result, the
                                                                 underwriting survey process may not reliably identify trends in
To aid in monitoring the overall level of risk in                the risk associated with underwriting practices for various
institutional lending practices with the emphasis on early       consumer loans.
risk detection, FDIC policy requires the completion, by
examiners, of the Underwriting Survey at the end of each         Recommendation and Management
risk management examination of an FDIC-supervised                Response
institution. The FDIC uses the surveys to track whether
institutions are making loans without adequate collateral        We recommended that the Director, DSC, strengthen controls over
protection and the extent to which the institutions make         the Underwriting Surveys to ensure the completeness and accuracy
loans to borrowers who lack a demonstrable ability to            of survey data. In its response, DSC stated that it plans to meet the
repay. Completed surveys also provide information about          intent of our recommendation as part of its ongoing revisions to the
an institution’s underwriting trend since the last               Underwriting Survey, which will be renamed the Credit and
examination and current underwriting practices.                  Consumer Products Survey, intended to enhance the quality and
                                                                 quantity of information collected.


 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                Page


BACKGROUND                                                                   1

RESULTS OF AUDIT                                                             3

EXAMINER ASSESSMENT OF UNDERWRITING PRACTICES FOR                            3
CONSUMER LOANS NOT SECURED BY REAL ESTATE

   Examination Coverage                                                      4
   Transaction Testing                                                       5
   Conclusion                                                                5

EXAMINER COMPLIANCE WITH UNDERWRITING SURVEY                                 5
REQUIREMENTS

   Use of Information in the Surveys                                         7
   Recommendation on the Underwriting Survey Process                         8

CORPORATION COMMENTS AND OIG EVALUATION                                      8

APPENDICES

   1. OBJECTIVE, SCOPE, AND METHODOLOGY                                   9
   2. EXAMINATION GUIDANCE FOR CONSUMER LOAN                             14
      PORTFOLIOS
   3. SUMMARY OF ON-SITE RISK MANAGEMENT EXAMINATION                     17
      COVERAGE OF CONSUMER UNDERWRITING PRACTICES IN
      FDIC-SUPERVISED INSTITUTIONS
   4. CORPORATION COMMENTS                                               19
   5. MANAGEMENT RESPONSE TO THE RECOMMENDATION                          20
   6. ACRONYMS USED IN THE REPORT                                        21

TABLE

   Concentrations of Consumer Lending at FDIC-Supervised Institutions    2
    Federal Deposit Insurance Corporation                                                           Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


    DATE:                                     February 6, 2009

    MEMORANDUM TO:                            Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection


                                              /Signed/
    FROM:                                     Russell A. Rau
                                              Assistant Inspector General for Audits

    SUBJECT:                                  Examination Coverage of Underwriting Practices for
                                              Consumer Loans Not Secured by Real Estate
                                              (Report No. AUD-09-002)


    This report presents the results of our audit of FDIC examination coverage of
    underwriting practices for consumer loans not secured by real estate. Such loans are used
    by consumers to finance a variety of purchases, including: automobiles, appliances,
    furniture, home repairs, education costs, medical expenses, and vacations.1 As of
    March 31, 2008, FDIC-supervised institutions held approximately $94.7 billion in such
    loans. Accordingly, it is important for FDIC examiners to adequately assess the risks
    associated with such loans when they represent a material percentage of an institution’s
    assets.

    The audit objective was to assess FDIC risk management examination coverage of
    institution underwriting practices for consumer loans not secured by real estate. We
    conducted this performance audit in accordance with generally accepted government
    auditing standards. Appendix 1 of this report discusses our objective, scope, and
    methodology in detail.


BACKGROUND

    Loan underwriting is the process a lender uses to determine whether the risk of lending to
    a particular borrower under a particular set of circumstances is acceptable. To help
    assess the quality of, and the risks associated with, a particular loan, institutions
    commonly develop underwriting guidelines and use automated or manual credit scoring
    systems that evaluate creditworthiness on the basis of key attributes of the applicant and
    other aspects of the transaction. March 31, 2008 Call Report data showed that out of

    1
      Consolidated Reports of Condition and Income (Call Report) Schedule RC-C, Item 6 requires FDIC-
    insured institutions to report “Loans to Individuals for Household, Family, and Other Personal
    Expenditures (Not Secured by Real Estate).” Item 6.c. Other Consumer Loans includes installment loans,
    demand loans, and single payment time loans (for purchases as described above). Accordingly, the term
    “Other Consumer Loans” is also used in this report to refer to such loans.
5,183 FDIC-supervised institutions, 404 institutions had more than 10 percent of their
assets concentrated in consumer loans not secured by real estate (see the table below).
For the purpose of this report, concentrations refer to Other Consumer Loan portfolios
that total 10 percent or more of the total assets of an institution. We sampled 14 of the 53
institutions for which the FDIC had conducted risk management examinations during
2007 and 2008. Details on our sample are discussed in Appendix 1.

 Concentrations of Consumer Lending at FDIC-Supervised Institutions
   Percentage of Loans to Total Assets                 Banks with Other Consumer Loans
              50% to 100%                                             11
               40% < 50%                                               9
               30% < 40%                                               7
               20% < 30%                                              46
               10% < 20%                                             331
                 Totals                                              404
 Source: March 31, 2008 Call Report information.



The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs risk
management examinations of FDIC-supervised institutions to assess their overall
financial condition, management practices and policies, and compliance with applicable
laws and regulations and (2) issues related guidance to institutions and examiners. DSC
has issued underwriting standards to institutions and focuses attention on loan
underwriting, including credit scoring, as part of its statutorily required risk management
examinations of FDIC-supervised institutions.

Primary examiner guidance on the review of an institution’s consumer credit
underwriting practices is contained in DSC’s Risk Management Manual of Examination
Policies (Examination Manual), which helps examiners to provide an overall assessment
of, and identify the risks associated with, FDIC-supervised institutions’ consumer credit
underwriting activities.

Additionally, to aid in monitoring the overall level of risk in institutional lending
practices with the emphasis on early risk detection, FDIC policy requires examiners to
complete the Underwriting Survey at the conclusion of each on-site risk management
examination of an FDIC-supervised institution. Examiners use the online Underwriting
Survey Response System to complete the surveys. The FDIC uses the surveys to track
whether institutions are making loans without adequate collateral protection and the
extent to which the institutions make loans to borrowers who lack a demonstrable ability
to repay. The FDIC also uses the surveys to develop reports on trends in risks in current
underwriting practices.




                                                   2
RESULTS OF AUDIT

    DSC has established sound risk management examination guidance for the reviews of
    consumer loans not secured by real estate in FDIC-supervised institutions. Specifically,
    DSC has issued examiner guidance in the form of examination manuals, Regional
    Directors (RD) Memoranda, Examination Documentation (ED) modules, Financial
    Institution Letters (FIL),2 and FDIC policy statements. Based on our review of 14
    examinations, we concluded that the examiners had followed established guidance and
    conducted procedures as part of risk management examinations to assess consumer loan
    underwriting risks. Specifically, we found evidence that examiners reviewed indirect
    lending agreements, underwriting practices, credit scoring systems, the adequacy of
    allowances for loan and lease losses (ALLL), asset classifications, and risk and account
    management systems (see Appendix 2). Additionally, examiners conducted transaction
    testing on a sample of consumer loans when necessary to assess compliance with
    underwriting standards. For the examinations we sampled, we concluded that the
    examiners had adequately considered the risks associated with consumer lending
    activities not secured by real estate (Examiner Assessment of Underwriting Practices
    for Consumer Loans Not Secured by Real Estate).

    Although our overall conclusion was positive with respect to examination coverage of
    institution underwriting practices for consumer loans not secured by real estate,
    examiners did not always properly complete the required Underwriting Survey.
    Specifically, FDIC policy requires that a knowledgeable examiner complete the
    Underwriting Survey at the conclusion of each examination; however, for 8 (57 percent)
    of the 14 sampled examinations, the examiners either did not complete the survey
    (2 cases) or provided responses that were inconsistent with information in the Report of
    Examination (ROE) on consumer loan underwriting (6 cases). Controls over the
    Underwriting Survey process were not sufficient to prevent and detect these errors. As a
    result, this process may not reliably identify trends in the risk associated with
    underwriting practices for various consumer loans. (Examiner Compliance With
    Underwriting Survey Requirements).


EXAMINER ASSESSMENT OF UNDERWRITING PRACTICES FOR CONSUMER
LOANS NOT SECURED BY REAL ESTATE

    DSC’s examination guidance has provided examiners the on-site examination tools to
    identify and assess consumer lending risk related to: indirect lending agreements,
    underwriting practices, credit scoring systems, adequacy of ALLL, asset classifications,
    risk and account management systems, and credit grading systems.



    2
     The FDIC issues FILs to FDIC-supervised institutions to announce, for example, new regulations and
    policies, new FDIC publications, and a variety of other matters of principal interest to those responsible for
    operating a bank or savings association. Examiners may consider such institution guidance when
    conducting risk management examinations.
                                                         3
      The Examination Manual includes factors for addressing asset quality, such as the
      adequacy of underwriting standards, soundness of credit administration practices, and the
      appropriateness of risk identification practices and credit scoring systems. Further, in
      general, various other DSC risk management examination guidelines address reviews of
      transaction testing and analyses of loan portfolios (as described in Appendix 2).

      Our review of examination documentation for 14 examinations performed by 5 DSC field
      offices showed that examiners had followed examination guidance and conducted
      detailed procedures, such as testing of individual transactions, as part of risk management
      examinations to assess consumer loan underwriting risks as discussed in the following
      sections.


Examination Coverage

      We sampled 14 of the 53 institutions identified by DSC as having concentrations of
      consumer loans not secured by real estate to determine the extent of examiner coverage
      of underwriting standards during on-site risk management examinations. The institutions
      were engaged in various combinations of consumer lending to include educational and
      student, home improvement, mobile home, recreational, marine, taxi medallion, subprime
      automobile, automobile, and indirect lending. Further, examinations for 9 of the 14
      institutions indicated concentrations of consumer lending of 20 percent or greater during
      the period the examination took place.

      To determine the level of examination coverage related to consumer credit underwriting
      for the 14 institutions in our sample, we reviewed ROEs, examination planning
      documents, examiner working papers and summaries, and DSC’s Virtual Supervisory
      Information on the Net (ViSION)3 system documentation. The examination for 1 of the
      institutions focused on a review of the institution’s commercial real estate portfolio, and
      its consumer lending activities were not addressed in the ROE.4 Therefore, our
      assessment of DSC’s risk management coverage was ultimately limited to the 13
      remaining examinations in our sample. Our conclusions on those examinations follow.

      ¾ For 13 examinations, the examiners provided substantial coverage of the institutions’
        consumer lending activities to include assessments of general policies and procedures,
        underwriting practices, monitoring systems, and the board of directors’ oversight.

      ¾ For 12 examinations, the examiners assessed each of the following: indirect lending
        programs, ALLL, asset classifications, risk and account management systems, and
        credit grading systems.
      3
       ViSION is DSC’s bank-supervision tracking and reporting database.
      4
       The institution had less than 15 percent of is assets concentrated in consumer credits. The examination
      asset review focused on appraisal and evaluation issues noted at the prior examination. In addition,
      concentration monitoring was carefully evaluated during the examination given the high levels of
      commercial real estate and construction and development lending activities at this institution. As of
      December 31, 2006, commercial real estate loans represented 310 percent of Tier 1 Capital, and
      construction and land development loans represented 184 percent of Tier 1 Capital.
                                                              4
      ¾ For 13 examinations, the examiners considered institution credit scoring.
        Specifically, evidence for nine of these institutions showed that the examiners
        conducted reviews of automated credit scoring models, and in four cases, examiners
        determined that institutions had used manual credit scoring systems that relied on Fair
        Isaac & Co. (FICO) scores and/or manual scoring methods.

      Details of our assessment of the on-site risk management examination coverage of
      consumer underwriting practices in FDIC-supervised institutions are provided in
      Appendix 3.


Transaction Testing

      We also assessed the level of transaction testing examiners conducted during the on-site
      risk management examinations. For 11 of the 13 sampled examinations that addressed
      consumer lending, examiners conducted transaction testing to measure compliance with
      consumer lending underwriting standards. Although transaction testing was not
      conducted for two of the examinations in our sample, we concluded the following:

      ¾ For one examination, transaction testing had been conducted during the asset review
        for the institution 5 months before the on-site examination.

      ¾ For one examination, a portfolio-level review had been conducted on the consumer
        loan portfolio during the on-site examination.


Conclusion

      As a result of these generally positive results, we are not making any recommendations
      related to this finding.


EXAMINER COMPLIANCE WITH UNDERWRITING SURVEY REQUIREMENTS

      Based on our sample of 14 institutions that had risk management examinations conducted
      during 2007, we found that examiners did not always properly complete the required
      Underwriting Survey. Specifically, FDIC policy requires that a knowledgeable examiner
      complete the Underwriting Survey at the conclusion of each examination; however, for 8
      (57 percent) of the 14 sampled examinations, the examiners either did not complete the
      survey (2 cases) or provided responses that were inconsistent with information in the
      ROEs on consumer loan underwriting (6 cases). Controls over the Underwriting Survey
      were not sufficient to prevent and detect these errors. As a result, the Underwriting
      Survey process may not reliably identify trends in the risk associated with underwriting
      practices for various consumer loans. Also, the reports developed from the surveys may
      not accurately represent the underwriting trends at FDIC-supervised institutions.

                                                  5
The requirement for examiners to complete an Underwriting Survey is contained in
RD Memorandum 98-076, Underwriting Survey Questionnaire Changes. The
RD Memorandum states that DSC uses examiner responses to the survey to monitor the
overall level of risk in banks’ lending practices, with an emphasis on early risk detection
of potential lending problems. Additionally, the FDIC’s Division of Insurance and
Research (DIR) develops reports from the survey information, showing trends in risk in
current practices for various loan types, including consumer loans.

The survey questionnaire requests information about the institution’s underwriting trends
since the last examination and the current underwriting practices of the institution
examined. The questionnaire focuses on three topics: material changes in underwriting
practices for new loans, the degree of risks in underwriting practices, and underwriting
practices for specific categories of loans (one of which is consumer loans). The
examiners are expected to answer questions related to: (1) the extent to which the
institution makes “secured” consumer loans without adequate collateral protection,
(2) the extent to which the institution makes consumer loans to borrowers who lack
demonstrable ability to repay, and (3) the examiners’ concerns about the institutions’
consumer loan underwriting practices. Examiners are asked to classify the occurrence of
specific risky practices as “frequent enough to warrant notice” or, if the risky practice is
more prevalent, as “common or standard procedure.”

We reviewed ROEs, Underwriting Surveys, examination planning documents, and asset
review summaries for each of the 14 institutions in our sample and found the following:

¾ For two examinations, the examiners did not complete the Underwriting Survey.
  According to DSC field office management responsible for the two examinations, one
  institution was a “niche” bank,5 and one examination was led by the State banking
  regulators. Neither of these two explanations adequately support why surveys were
  not completed.

¾ For two examinations, the examiners completed the Underwriting Survey but did not
  address questions specifically related to consumer loans.

¾ For four examinations, the examiners completed the Underwriting Survey, but the
  responses contained in the survey were contradictory to comments in the respective
  ROE. Specifically:

    •   In two instances, the ROEs indicated the examiners had reviewed the consumer
        loan portfolio, but the examiners responded in the Underwriting Survey that
        consumer loans were not reviewed.



5
 According to DSC Transmittal No. 2004-001, Maximum Efficiency, Risk-focused, Institution Targeted
(MERIT) Guidelines, dated January 7, 2004, a niche bank could be any specialized type of bank, such as a
credit card or Internet bank.

                                                    6
          •   In one instance, the ROE indicated the institution had a “loosening of
              underwriting standards” for consumer loans, while the Underwriting Survey
              stated the examiner had no concerns with consumer credit underwriting.

          •   In one instance, the ROE stated the institution had strong consumer loan
              underwriting standards, while the Underwriting Survey stated the institution made
              consumer loans to borrowers who lacked a demonstrable ability to repay
              “frequently enough to warrant notice.”

      FDIC management stated it was aware of problems associated with the Underwriting
      Surveys. According to a DSC management official, there is no required secondary
      review of the responses to the Underwriting Survey at the field office or regional office
      level.


Use of Information in the Surveys

      In November 2003, DSC conducted a study to investigate (1) the relationships between
      examiners’ assessments of the riskiness of bankers’ lending practices and subsequent
      changes in bank condition and (2) the question of whether these relationships can
      enhance supervisors’ early-warning systems.6 According to the study, loan underwriting
      practices are the primary determinant of bank credit risk and bank credit availability.
      Specifically, the study found that:

      ¾ higher (lower) risk in underwriting practices is associated with subsequent increases
        (decreases) in nonperforming assets generally,

      ¾ assessments of underwriting risk contribute to off-site surveillance models that
        predict safety and soundness examination ratings, and

      ¾ Underwriting Survey data are best used as diagnostic measures of the sources of
        financial distress.

      The FDIC, the Board of Governors of the Federal Reserve System (FRB), and the Office
      of the Comptroller of the Currency (OCC) conduct surveys on underwriting practices at
      the banks they supervise and publish the results of the surveys on their Web sites.7 In
      addition, the FDIC’s DIR prepares semiannual reports entitled, Recent Underwriting
      Surveys by Federal Banking Regulatory Agencies and Recent Underwriting Practices at
      FDIC-Supervised Banks, based on information provided in the Underwriting Surveys.

      6
        DSC Working Paper 2003-06, Bank Loan-Underwriting Practices: Can Examiners’ Risk Assessments
      Contribute to Early-Warning Systems?, dated November 2003.
      7
        The FDIC published Perspectives: Recent Underwriting Practices at FDIC-Supervised Banks, dated
      April 2008 (http://fdic01/division/dir/pubs/Perspectives/2008/underwriting_April_08/NATL.pdf); the FRB
      published Senior Loan Officer Opinion Survey on Bank Lending Practices, dated April 2008,
      http://www.federalreserve.gov/boarddocs/snloansurvey); and the OCC published Survey of Credit Underwriting
      Practices 2008, dated June 2008 (http://www.occ.treas.gov/cusurvey/2008UnderwritingSurvey.pdf).
                                                            7
      These reports show trends in risk in current practices for various loan types, including
      consumer loans.

      According to the DIR June 16, 2008 semiannual report on underwriting, the potential risk
      associated with institutions’ current underwriting practices and the credit risk of
      institutions’ overall loan portfolios increased compared to the last reporting period.
      However, the risks in overall underwriting standards were mixed: the frequency of risky
      practices increased for business, commercial real estate, construction, and consumer
      lending, but decreased for agricultural and home equity lending.

      If examiners do not complete the Underwriting Surveys or respond incorrectly to the
      questionnaire, the Underwriting Survey process may not accurately identify trends in the
      risk associated with underwriting practices for various consumer loans and may hamper
      the efficacy of the survey as an off-site monitoring tool.

      When we informed DSC management about our findings in this area, they told us that
      they were revising the survey process to ensure that the information is more useful. In
      particular, management plans to obtain more detailed data on institution loan portfolios
      and implement controls to ensure the completeness and accuracy of survey responses.
      Such actions can increase the efficacy of the survey as an off-site monitoring tool.
      Specific information on revisions being made to the survey process, including milestones
      for implementation, was not available at the completion of our audit. Once implemented,
      the new survey process could address the deficiencies related to completion of the
      surveys.


Recommendation on the Underwriting Survey Process

      The Director, DSC, should strengthen controls over completion of the Underwriting
      Surveys to ensure the completeness and reliability of survey information.


CORPORATION COMMENTS AND OIG EVALUATION

      On January 29, 2009, the Director, DSC, provided a written response to a draft of this
      report. In its response, DSC stated that it plans to meet the intent of our recommendation
      as part of its ongoing revisions to the Underwriting Survey, which will be renamed the
      Credit and Consumer Products Survey, intended to enhance the quality and quantity of
      information collected. DSC’s response is presented in its entirety as Appendix 4 of this
      report.

      DSC’s actions are potentially responsive to our recommendation. A summary of
      management’s response to the recommendation is in Appendix 5 of this report. The
      recommendation is considered resolved but will remain open until we have determined
      that agreed-to corrective actions have been completed and are responsive.


                                                   8
                                                                                  APPENDIX 1
                         OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The audit objective was to assess FDIC risk management examination coverage of
      institution underwriting practices for consumer loans not secured by real estate.
      Specifically, we assessed the examination coverage of underwriting and credit scoring
      practices for Other Consumer Loans as included in Call Report Schedule RC-C, Item 6.c.

      We conducted this performance audit from June 2008 through October 2008 in
      accordance with generally accepted government auditing standards. Those standards
      require that we plan and perform the audit to obtain sufficient, appropriate evidence to
      provide a reasonable basis for our findings and conclusions based on our audit objectives.
      We believe that the evidence obtained provides a reasonable basis for our findings and
      conclusions based on our audit objectives.


Scope and Methodology

      The scope of our audit involved a review of the FDIC’s guidance issued to institutions
      and examiners and the FDIC’s process for conducting on-site risk management
      examinations of FDIC-supervised institutions that have concentrations of Other
      Consumer Loans.

      To obtain an understanding of DSC’s risk management examination coverage of
      underwriting practices of FDIC-supervised institutions with concentrations of Other
      Consumer Loans we:

      ¾ Identified the various types of institution and examiner guidance and examiner
        training provided for on-site reviews of Other Consumer Loans portfolios.

      ¾ Identified the universe of FDIC-supervised institutions engaged in consumer lending
        activities and the institutions with consumer loan concentrations.

      ¾ Reviewed ROEs, examination planning documents, examination workpapers, and
        DSC’s ViSION system documentation for our sample of institutions with
        concentrations of Other Consumer Loans.

      ¾ Interviewed appropriate DSC officials in FDIC headquarters, regional, and field
        offices to obtain their perspectives on consumer lending and overviews of the process
        they follow when conducting on-site risk management examinations of FDIC-
        supervised institutions engaged in consumer lending activities.

      ¾ Reviewed Call Report data and underwriting trend data related to consumer lending.




                                                  9
                                                                                                  APPENDIX 1


Audit Sample

      Our audit conclusions are based on a non-statistical judgmental sample.8 We focused on
      three categories of institutions with concentrations of Other Consumer Loans. We
      identified 404 FDIC-supervised institutions that reported over 10 percent of their assets
      as Other Consumer Loans on their March 2008 Call Reports. We then determined which
      of these institutions had an FDIC on-site risk management examination in 2007 or 2008.
      Based on the criteria illustrated below, we identified a universe of 53 institutions.

         Amount of Other Consumer            % of Other Consumer               FDIC or            Institutions
              Loans ($ in millions)           Loans to Total Assets          Joint Exams*          Sampled
                    > $500                           >10%                          9                    3
                 $100 to $500                        >10%                          18                   5
                $ 25 to < $100                       >10%                          26                   6
        Totals                                                                     53                  14
      *Examinations performed jointly by the FDIC and state regulator.

      Out of these 53 institutions, we sampled 14 institutions identified as having various levels
      of consumer lending activities. The 14 institutions had from 11 percent to 93 percent of
      their total assets in Other Consumer Loans and were engaged in the following types of
      consumer lending.

                                                                                        % of Other Consumer
           Consumer Lending Activities              No. of Banks in Sample of 14
                                                                                        Loans to Total Assets
      Educational and Student                                      1                           91.86
      Home Improvement                                             1                           92.96
      Mobile Home                                                  1                           12.64
      Indirect Consumer                                            1                           41.98
      Recreational, Marine, and Automobile                         1                           17.07
      Recreational, Marine, and Taxi Medallion                     1                           42.53
      Automobile and Personal                                      1                           16.52
      Automobile and Mobile Home                                   1                           58.63
      Subprime Automobile                                          2                           78.98
                                                                                               90.32
      Automobile                                                   4                           11.42
                                                                                               14.85
                                                                                               31.46
                                                                                               76.07
      Total                                                       14

      Our sample was ultimately limited to 13 institutions because the examination for 1 of the
      14 institutions focused on a review of the institution’s commercial real estate portfolio,
      and its consumer lending activities were not addressed in the ROE.




      8
        The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.
                                                            10
                                                                                    APPENDIX 1


Internal Control

      To assess the relevant control activities, we identified the processes related to conducting
      on-site FDIC risk management examinations of institutions’ underwriting practices for
      consumer loans not secured by real estate. These controls included policies and
      procedures included in examiner and institution guidance as presented in the DSC
      Examination Manual, RD Memoranda, ED Modules, FILs, and FDIC Policy Statements.

      We identified the following relevant internal controls applicable to examination
      assessments of consumer credit underwriting and related supervisory and enforcement
      actions:

      ¾ Examination and Institution Guidance: The FDIC has issued examiner guidance for
        planning and conducting on-site reviews of institutions engaged in consumer lending
        activities and institution guidance. The guidance addresses, but is not limited to,
        installment loans, credit underwriting, loan appraisals and classifications, credit
        scoring, loan review systems, indirect automobile lending, and credit scoring and
        modeling systems. In addition, DSC has specific procedures for reviews of subprime
        lending, completion of Underwriting Surveys, and standards for the ROEs and
        supporting examination workpapers to document the results of the examinations.
        Also, the FDIC has issued institution guidance (in the form of FILs and FDIC Policy
        Statements) related to the management of consumer lending portfolios and activities,
        classification and account management of retail credit, subprime loan portfolios, and
        management of third-party risk. Examiners may consider such institution guidance
        when conducting risk management examinations.

      ¾ Laws and Regulations: Section 39 of the Federal Deposit Insurance Act - Standards
        for Safety and Soundness FDIC Rules and Regulations, Part 364, Appendix A -
        Interagency Guidelines Establishing Standards for Safety and Soundness.

      ¾ Oversight and Offsite Monitoring: DSC’s Internal Control and Review Section
        performs periodic reviews of DSC regional and field office operations. In addition,
        DSC’s organizational structure provides for supervisory review of examination
        products such as the Pre-Examination Planning Memorandum.

      ¾ Tracking and Monitoring: Call Report Schedule RC-C, Item 6 requires FDIC-insured
        institutions to report “Loans to Individuals for Household, Family, and Other
        Personal Expenditures (Not Secured by Real Estate).” Item 6.c. Other Consumer
        Loans includes installment loans, demand loans, and single-payment time loans. In
        addition, ViSION’s Supervisory and Reporting Tracking Module records key
        information on risk management examinations for DSC management.

      ¾ Training: DSC has controls in place such as the training and commissioning process
        for examiners. Additionally, DSC examiners we interviewed stated that DSC’s ED
        Modules related to consumer lending provided guidance for inexperienced examiners.


                                                   11
                                                                                  APPENDIX 1


Reliance on Computer-processed Information

      Our audit objective did not require that we separately assess the reliability of computer-
      processed information, and we did not rely on computer-processed data to support our
      significant findings and conclusions. During the audit, we determined that the FDIC
      tracks the volume of FDIC-supervised institutions with consumer loan concentrations
      through the Call Report process. Schedule RC-C, Item 6.c. of the Call Report requires
      FDIC-insured institutions to report the volume of Other Consumer Loans, which include
      installment loans, demand loans, and single-payment time loans. However, our
      assessment centered on reviews of ROEs, examination planning documents, examination
      workpapers and summaries, DIR Underwriting Survey analyses, and ViSION system
      documentation.


Performance Measurement

      We reviewed FDIC annual performance plans and strategic plans to identify goals,
      objectives, and results and determine whether the Corporation has (1) established
      quantifiable performance measures and (2) developed and analyzed data to assess
      program, project, or function performance related to its efforts to identify risk in
      institutions involved in the underwriting of consumer loans not secured by real estate. In
      fulfilling its primary supervisory responsibilities, the FDIC pursues two strategic goals:
      (1) FDIC-supervised institutions are safe and sound, and (2) consumers’ rights are
      protected and FDIC-supervised institutions invest in their communities. These strategic
      goals and objectives do not directly relate to on-site risk management examination
      coverage of underwriting and credit scoring practices for consumer loans not secured by
      real estate.

      In addition, we reviewed the FDIC’s 2005-2010 Strategic Plan, 2008 Annual
      Performance Plan, 2008 Strategic Priorities, 2008 Corporate Performance Objectives, and
      2007 Annual Report, finding no specific information related to our objectives.


Compliance With Laws and Regulations

      We reviewed applicable laws and regulations related to the FDIC’s risk management
      examinations of underwriting practices. We found no instances where the FDIC was not
      in compliance with applicable laws and regulations, but we did note areas for
      improvement related to controls over the Underwriting Survey process, as described in
      the report.

      Section 39, Standards for Safety and Soundness, of the Federal Deposit Insurance Act
      (FDI Act) states that each appropriate federal banking agency shall, for all insured
      depository institutions, prescribe standards relating to credit underwriting. The
      Interagency Guidelines Establishing Standards for Safety and Soundness, prescribed
      pursuant to section 39 of the FDI Act, as set forth in Appendix A to Part 364 of the FDIC

                                                  12
                                                                             APPENDIX 1


Rules and Regulations, applies to all insured state nonmember banks and to state-licensed
insured branches of foreign banks that are subject to the provisions of section 39 of the
FDI Act. According to these guidelines, an institution should establish and maintain
prudent credit underwriting practices.

We assessed the risk of fraud and abuse related to the audit objective in the course of
evaluating audit evidence.




                                            13
                                                       APPENDIX 2
         EXAMINATION GUIDANCE FOR CONSUMER LOAN PORTFOLIOS


FDIC guidance contains the following examination procedure requirements, which we identified
as those that, if conducted during on-site examinations, would provide an overall assessment and
identify the risks associated with FDIC-supervised institutions’ consumer lending underwriting
and credit scoring activities.

     Examination Procedures and Guidance Related to Consumer Loan Underwriting
Pre-Examination Planning and Scoping
- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
- ED Module: Consumer and Check Credit
¾ Amount, severity, or absence of loan charge offs for the prior period
¾ Types of loans: Installment Loans (direct loans or indirect loans for dealer paper), Subprime, Student
    loans, and Payday loans
¾ Items reviewed to include policies and procedures; credit risks, Uniform Bank Performance Reports,
    complaints; activities by subsidiaries; third-party relationships

Consumer Loan Review
- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
- ED Module: Consumer and Check Credit
¾ Overall adequacy of policies and procedures
¾ Credit quality and credit quantities
¾ Potential future problems

Indirect Lending
- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
- ED Module: Consumer and Check Credit
¾ Agreements to require payments made directly to the bank
¾ Dealer information, to include upper lending limits
¾ Lending criteria or standards for acceptable or rejection of dealer paper
¾ Dealer reserves and charge backs
¾ Type of lending such as subprime, new car, and used car loans
¾ Third-party agreements
¾ Yield Spread Premiums




                                                   14
                                                                                         APPENDIX 2

Underwriting
- ED Module: Consumer and Check Credit
- Financial Institution Letter 44-2008 – Guidance for Managing Third-Party Risk (issued June 6, 2008)
¾ Policies and procedures, monitoring systems, audits and board of directors’ oversight
¾ Third-party relationships and the basis for credit decisions

- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
- ED Module: Loan Portfolio Management
¾ Verification of borrower income, payment delinquencies, and ability to repay loan
¾ Verification of value of collateral

- RD Memorandum 98-076, Underwriting Survey Questionnaire Changes
¾ Information about the institution’s underwriting trends since the last examination and the current
    underwriting practices of the institution examined

Transaction Testing
- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
¾ Compliance with underwriting policies and procedures
¾ Testing of payment delinquencies in the portfolio
¾ Testing of classified loans to determine the adequacy of underwriting
¾ The rationale for transaction testing or not conducting testing
¾ The types of loans tested and the sample size
¾ The results of transaction testing

Scoring Systems
- Credit Card Activities Manual: Chapter VIII, Scoring and Modeling
- ED Module: Loan Portfolio Management
¾ The types of scoring systems used and whether the models are generic, custom, or vendor-supplied
¾ How management uses scores in its decision-making processes and whether each model’s use is
    consistent with the intended purpose
¾ Whether designated staff possesses the necessary expertise
¾ Assessment of cut-off scores and odds charts to assess the level of risk being taken
¾ Testing of the effectiveness of the bank's validation function by selectively reviewing various aspects
    of the bank’s validation work for key models
¾ Assessment of override policies and practices
¾ Scoring models developed by third parties and assessments of whether the systems are supervised and
    maintained in accordance with vendor-provided specifications and recommendations

- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
¾ The level of human review, score requirements for manual review, and basis for judgmental credit
    decisions
¾ Assessment of the institution’s scoring system maintenance program, to include whether or not the
    audit program appropriately considers models and oversight thereof

ALLL Adequacy and Assignments of Asset Classifications
- Uniform Retail Credit Classification and Account Management Policy
¾ Portfolio classifications of doubtful, substandard, or loss

- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
- ED Module: Consumer and Check Credit
                                                   15
                                                                                    APPENDIX 2

¾ Did the examiner use FIL 40-2000, Uniform Retail Credit Classification and Account Management
  Policy
¾ Did the examiner use the “Examiner Support Package” with built-in formulas
¾ Did the examiner use the “Formula Classification Approach”

Risk and Account Management Systems
- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
- FIL 40-2000: Uniform Retail Credit Classification and Account Management Policy
¾ Lending policies and procedures
¾ Measures to ensure adherence to policy
¾ Detailed operating procedures
¾ Internal controls
¾ Review re-aging, renewals, and work-out plan policies

Credit Grading Systems
- DSC Risk Management Manual of Examination Policies, Part II, Section 3.2, Loans
¾ Provides assessments of credit quality
¾ Identifies problem loans
¾ Assigns risk ratings

ROE Comments
- DSC Risk Management Manual of Examination Policies: Asset Classifications
¾ ALLL adequacy

- DSC Risk Management Manual of Examination Policies: ROE Instructions, and Risk Management
  Assessments
¾ Risk Management Assessment Page: Examiner Conclusions
¾ Review of the Other Consumer Loans portfolio
¾ Risk and account management systems
¾ Results of transaction testing
¾ Asset classifications
¾ Weaknesses or recommendations for improvements

Review of Subprime Loans
- RD Memorandum 01-005, Expanded Guidance for Evaluating Subprime Lending Programs
¾ Capital Allocations
¾ Portfolio Management




                                                 16
                                                      APPENDIX 3
 SUMMARY OF ON-SITE RISK MANAGEMENT EXAMINATION COVERAGE OF
CONSUMER UNDERWRITING PRACTICES IN FDIC-SUPERVISED INSTITUTIONS


Based on our review of examination documentation for a sample of 14 FDIC-supervised
institutions, we found that examiners generally complied with guidance for assessing consumer
underwriting practices during on-site risk management examinations. Although our audit sample
contained 14 institutions, during our testing, we found that one institution’s examination focused
on commercial real estate and did not address consumer lending. For that one institution, the
percentage of consumer loans to total assets was 14.85 percent.


  On-site Risk Management Examination Coverage of Consumer Lending Underwriting
              and Credit Scoring Activities in FDIC-Supervised Institutions
                                                                      Number of Examinations
                   Area of Examination Coverage                         Providing Coverage
                                                                      (Based on 13 Institutions)
 The Pre-Examination Planning Memorandum addressed the                           11
 institution’s consumer lending activities.
 1. The examination included a review of the consumer loan
      portfolio to include:

     ¾ Overall adequacy of policies and procedures.                                13

     ¾ Adequacy of underwriting policies and procedures,                           13
       monitoring systems, audits and the institutions’ board of
       directors’ oversight.

     ¾ Review of credit grading systems.                                           12

 2. During the review of the institution’s asset classification
    process, the examiner:

     ¾ Reviewed the institution’s asset classification process                     12
       and assigned asset classifications.

     ¾ Followed the Uniform Retail Credit Classification policy
       and determined whether the institution followed the
       policy as it related to portfolio management.                               10

     ¾ Conducted a review of the policies and procedures
       related to the institution’s Risk and Account
       Management Systems.                                                         12


 The examiner identified subprime characteristics of the                             8
 consumer loan portfolio and determined whether the subprime       (Five of the institutions did engage
 guidelines were followed for capital allocation and portfolio            in subprime lending.)
 management.


                                                     17
                                                                                              APPENDIX 3

 3. The underwriting review addressed:

     ¾ Third-party agreements.                                                           6*

     ¾ Dealer information, to include upper lending limits.                               8
                                                                         (Four of the institutions were not
                                                                            involved in auto lending.)

     ¾ Third-party relationships and the basis for credit                                8*
       decisions.

 4. A review of the institution’s automated credit scoring system                         9
    was performed.                                                       (At four institutions, applications
                                                                          were approved based on FICO
                                                                                       scores.)

 5. The Underwriting Survey was completed at the close of the                            6
    examination.                                                       (For two institutions, no survey was
                                                                        completed. The survey responses
                                                                        for the remaining four institutions
                                                                             were not consistent with
                                                                        information in the related ROEs.)

 6. Transaction testing was conducted on the consumer loan                               11
    portfolio.


* Our audit fieldwork did not detect the existence of additional third-party or indirect relationships.




                                                      18
                       APPENDIX 4

CORPORATION COMMENTS
                                                                                                  APPENDIX 5
                   MANAGEMENT RESPONSE TO THE RECOMMENDATION


This table presents the management response on the recommendation in our report and the status
of the recommendation as of the date of report issuance.


    Corrective Action: Taken or Planned              Expected           Monetary       Resolved:a     Open or
           on the Recommendation                  Completion Date       Benefits       Yes or No      Closedb
    DSC is revising the Underwriting               June 30, 2009          $0              Yes          Open
    Survey, which will be renamed the
    Credit and Consumer Products Survey,
    to enhance the quality and quantity of
    information collected.

a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective action has been completed and is responsive to the
recommendation, the recommendation can be closed.




                                                         20
                                                            APPENDIX 6
         ACRONYMS USED IN THE REPORT


ALLL     Allowance for Loan and Lease Losses
DIR      Division of Insurance and Research
DSC      Division of Supervision and Consumer Protection
ED       Examination Documentation
FDI      Federal Deposit Insurance
FICO     Fair Isaac & Co.
FIL      Financial Institution Letter
FRB      Board of Governors of the Federal Reserve System
GAO      Government Accountability Office
OCC      Office of the Comptroller of the Currency
OIG      Office of Inspector General
RD       Regional Director
ROE      Report of Examination
ViSION   Virtual Supervisory Information on the Net




                           21
